   AUDIT REPORT
U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
Rhode Island, Department of
Environmental Management,
Division of Fish and Wildlife,
 from July 1, 2001, through
        June 30, 2003




 Report No. R-GR-FWS-0023-2004

                        May 2005
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191
                                                                                     May 19, 2005
                                     AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of Rhode Island, Department of Environmental
           Management, Division of Fish and Wildlife from July 1, 2001, through June 30, 2003
           (No. R-GR-FWS-0023-2004)

        This report presents the results of our audit of costs claimed by the State of Rhode Island,
Department of Environmental Management (DEM), Division of Fish and Wildlife (DFW), under
Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS). The audit included
claims that totaled approximately $15.3 million on FWS grants that were open during the State’s
fiscal years ended June 30, 2002 and 2003 (see Appendix 1). The audit also included a review of
the DEM’s compliance with certain regulatory and other requirements, including those related to
the collection and use of State hunting and fishing license revenues and the reporting of program
income.

       We found that DFW needs to improve controls over its equipment and reconcile its land
records to the official land records maintained by the DEM and to the land records maintained by
FWS. We also found that the DEM needs to develop written procedures on the controls and
accounting process utilized for Federal Assistance grants.

       FWS Region 5 advised us on May 3, 2005, that it agreed with the findings and
recommendations in the draft report but that neither FWS nor DEM would be providing a formal
response to the draft.

        In accordance with the Departmental (361 DM 1.5), please provide us with your written
response to the recommendations in this report by August 18, 2005. Your response should
include the information requested in Appendix 3. If you have any questions regarding this
report, please contact me at (703) 487-5345 or Mr. Steven Moberly, Audit Team Leader, at (916)
978-5650.

cc:   Regional Director, Region 5,
       U.S. Fish and Wildlife Service
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game agencies.

Scope, Objective, and Methodology

We performed our audit at the Rhode Island Department of Environmental Management (DEM),
Division of Fish and Wildlife (DFW) in Providence, Rhode Island. The audit work included
claims that totaled approximately $15.3 million on FWS grants that were open during the State’s
fiscal years (SFYs) ended June 30, 2002 and 2003 (see Appendix 1). We also visited four field
headquarters, four wildlife management areas, two fish hatcheries, and three boat access
facilities (see Appendix 2). The objective of our audit was to evaluate:

               ¾ the adequacy of the DEM’s accounting system and related internal controls;
               ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                 Federal Assistance grant agreements with FWS;
               ¾ the adequacy and reliability of the DEM’s hunting and fishing license fees
                 collection, certification, and disbursement processes;
               ¾ the adequacy of the DEM’s asset management system and related internal
                 controls with regard to purchasing, maintenance, control, and disposal; and
               ¾ the adequacy of the State’s compliance with the Acts’ assent legislation
                 requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the DEM to
the grants; interviews with employees to ensure that personnel costs charged to the grants were
supportable; and a review of the DEM’s use of fishing and hunting license revenues to determine
whether the revenues had been used for program purposes. We did not evaluate the economy,
efficiency, or effectiveness of the DEM’s operations.




1
    As amended, 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively



                                                         2
Prior Audit Coverage
On September 30, 1998, we issued audit report No. 98-E-705, “U.S. Fish and Wildlife Service
Federal Aid Grants to the State of Rhode Island, Department of Environmental Management,
Division of Fish and Wildlife, for Fiscal Years Ended June 30, 1995 and 1996.” In addition, the
State Auditor issued Single Audit reports on the State of Rhode Island for SFYs 2002 and 2003,
but DEM was not audited as a major program. However, the Single Audit report stated that
(1) the State’s accounting controls over equipment acquired with Federal Aid funds was not
adequate to ensure that acquisition and disposal information was recorded accurately and
(2) physical inventories were insufficient to ensure that the inventory data was complete.

We followed up on all significant findings to determine whether they had been resolved. We
determined that all findings in the audit of Federal Aid grants had been resolved, but the
accounting and inventory controls over equipment still need improvement (see Finding A).




                                               3
                                    Results of Audit
Our review found that:

            ¾ The DFW/DEM’s accounting system and related internal controls adequately and
              accurately accounted for grant and license fee receipts and disbursements;
            ¾ Direct and indirect costs claimed under the Federal Assistance grant agreements
              with FWS were adequately recorded and supported; and
            ¾ The State had adequate assent legislation in place that prohibited the use of
              license fees for any purpose other than the administration of the DFW.

However, we also found that:

       A.      DFW needs to improve its equipment records management system.
       B.      DEM needs to develop written policies and procedures to document the controls
               and accounting process used for Federal Assistance grants.
       C.      DFW needs to reconcile its land records with the official land records maintained
               by DEM and the land records maintained by FWS.




A. Equipment Records Management

The DFW did not maintain a comprehensive equipment records management system or develop
written policies and procedures to ensure that property acquired with Federal Assistance funds or
license revenues was controlled, inventoried, and used for its intended purpose.

The State of Rhode Island, Department of Administration, Fixed Assets Control and Tracking
System’s Policies and Procedures Manual requires the State to maintain adequate records to
support disposition of grant funds and conduct physical inventories at least every 2 years. In
addition, federal regulation 43 CFR § 12.72 (d) requires the grantee to maintain property records
that identify the funding source of the property and to develop a control system with adequate
safeguards to prevent loss, damage, or theft of property.

The DFW inventory database consisted of multiple spreadsheets that did not contain beginning
or ending balances, were not reconciled with the State’s accounting system or DEM’s personal
property inventory, and did not identify the property by funding source. DFW’s property
management responsibilities are performed substantially by one employee within the Wildlife
section as a collateral duty. In addition, DEM officials told us that a physical inventory of
DFW’s property was not conducted between 1998 and 2002, but that a physical inventory was
performed in 2003. However, the officials could not provide documentation showing the
inventory was performed or the results of the verification process. As such, there is no assurance
that the spreadsheet listings of property were accurate. As a result, property acquired with
Federal Assistance funds or license revenues could not be readily verified, and the existing
practices to safeguard equipment and to identify equipment that is lost, damaged, stolen, or no



                                                4
longer needed to support Sport Fish and Wildlife Restoration program requirements were not
adequate. We did not perform any tests of personal property due to the above deficiencies and
DFW’s acknowledgement that the inventory listing was not accurate.

We also found that DFW has not established policies and procedures to ensure that equipment
records are adequately maintained and the equipment is adequately safeguarded.

       Recommendations
       We recommend that FWS:

       1. Require DFW to develop and maintain an equipment records management system,
          including written policies and procedures, that will record, identify, and track
          equipment purchased with Federal Assistance funding or license revenues that meets
          the minimum requirements of the State and the federal regulations (43 CFR § 12.72).

       2. Require DFW to conduct and document a comprehensive review of its facilities to
          establish a baseline equipment inventory listing. As part of this process, DFW should
          take appropriate action to address, in accordance with state and federal requirements,
          any equipment found to be lost, missing, stolen, or no longer needed.

B. Policies and Procedures on Accounting Process
The DEM’s Office of Management Services performs the accounting function associated with
DFW’s Federal Assistance grants. However, we found that Management Services did not have
adequate written policies and procedures to describe, govern, and control the accounting process
employed to ensure consistent and proper accounting for license and other revenues and
expenditures of license revenues and Federal Assistance grant funds. Written policies and
procedures are a critical internal control to ensure that accounting procedures are applied
consistently and that costs are properly authorized, incurred, recorded, and traceable to a level of
expenditures to ensure that funds have not been used in violation of applicable statutes, in
accordance with the standards for financial management systems (43 CFR § 12.60). According
to Management Services officials, their office has not developed written policies and procedures
because it did not have the time or expertise.

       Recommendation
       We recommend that FWS require DEM to develop and maintain written policies and
       procedures that describe the accounting processes used to control and account for Federal
       Assistance funding and license and other revenues.

C. Land Records Reconciliations
The DFW maintains a spreadsheet of lands acquired with Federal Assistance funds and license
revenues, while DEM maintains the official land records listing. However, DFW has not
reconciled its land records with the DEM or FWS land records to ensure that its listing is
complete and accurate.



                                                 5
Recommendations
We recommend that FWS require DFW to:

1. Reconcile its schedule of lands purchased with Federal Assistance funds or license
   revenue with DEM’s official land records and with the land records maintained by
   FWS.

2. Develop policies and procedures that require these reconciliations to be performed
   periodically.




                                        6
                                               Appendix 1
                                               Page 1 of 2

       RHODE ISLAND DEPARTMENT OF
       ENVIRONMENTAL MANAGEMENT
  FINANCIAL SUMMARY OF REVIEW COVERAGE
     JULY 1, 2001, THROUGH JUNE 30, 2003


Grant Number       Amount      Claimed Costs

 F-10-D-50        $499,132          $410,884
 F-10-D-51         534,112           505,622
 F-20-R-42         171,200           139,339
 F-20-R-43         220,160           216,112
 F-20-R-44         150,160           169,407
 F-26-R-36         193,032           144,772
 F-26-R-37         188,950           188,228
 F-26-R-38         155,750           156,156
 F-42-E-15         212,417           161,736
 F-42-E-16         225,417           155,442
 F-42-E-17         241,417           247,507
 F-48-R-14         142,575           134,420
 F-48-R-15         149,300            86,869
 F-48-R-16         150,979           119,306
 F-59-D-10        1,050,000          991,777
 F-59-D-11         950,000           854,360
 F-59-D-12         870,000           874,408
 F-60-R-9          116,436            96,224
 F-60-R-10         116,590           103,100
 F-60-R-11         122,102            74,726
 F-61-R-9          473,740           435,742
 F-61-R-10         499,235           492,227
 F-61-R-11         656,450           697,484




                    7
                                                     Appendix 1
                                                     Page 2 of 2

        RHODE ISLAND DEPARTMENT OF
        ENVIRONMENTAL MANAGEMENT
   FINANCIAL SUMMARY OF REVIEW COVERAGE
      JULY 1, 2001, THROUGH JUNE 30, 2003


Grant Number              Amount     Claimed Costs

 F-64-R-2                 213,978          198,415
 F-64-R-3                 213,978          149,353
 F-64-R-4                 251,981          152,034
 FW-8-C-53                272,760          256,003
 FW-8-C-54                343,120          312,904
 FW-8-C-55                344,000          296,654
 FW-14-D-4               2,472,776       2,472,776
 FW-14-D-9                912,000          925,637
 FW-14-D-10               107,579          105,667
 FW-14-D-11               920,000           80,370
 FW-14-D-12               220,000          234,909
 FW-14-D-13               806,555           92,499
 FW-14-D-14                69,000               0
 W-22-D-46                541,665          493,668
 W-22-D-47                495,156          386,814
 W-23-R-45                307,416          279,169
 W-23-R-46                343,720          310,188
 W-23-R-47                410,450          373,865
 W-31-S-28                403,100          333,463
 W-31-S-29                398,724          380,645
 Total               $18,137,112       $15,290,881




                     8
                                        Appendix 2


              RHODE ISLAND
DEPARTMENT OF ENVIRONMENTAL MANAGEMENT
               SITES VISITED

               Field Headquarters
                  Fort Wetherill
               Government Center
                  Great Swamp
                   Round Top


           Wildlife Management Areas
                     Arcadia
                    Black Hut
                   Burlingame
                  Great Swamp


                 Fish Hatcheries
           Arcadia Warmwater Hatchery
             Lafayette Trout Hatchery


                  Boat Access
                  Fort Wetherill
                     Galilee
               Passeonkquis Cove




                        9
                                                                           Appendix 3


                       RHODE ISLAND
         DEPARTMENT OF ENVIRONMENTAL MANAGEMENT
                 STATUS OF AUDIT FINDINGS
                  AND RECOMMENDATIONS


 Recommendation               Status                    Action Required
A.1, A.2, B, C.1, and   Finding Unresolved    Provide a corrective action plan that
C.2                     and Recommendations   identifies the actions taken or planned to
                        Unimplemented         resolve the finding and implement the
                                              recommendations, and provide the basis
                                              for any disagreements. The plan should
                                              also include the target date and the
                                              official responsible for implementation
                                              of the recommendation, or an alternative
                                              solution. Unresolved findings and
                                              unimplemented recommendations
                                              remaining at the end of 90 days (after
                                              August 18, 2005) will be referred to the
                                              Assistant Secretary for Policy,
                                              Management and Budget for resolution
                                              or tracking of implementation,
                                              respectively.




                                       10
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
